Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 REVIEW OF THE SAVE SYSTEM’S
         PROCESSES
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 REVIEW OF THE SAVE SYSTEM’S
         PROCESSES
              EXECUTIVE                         SUMMARY


PURPOSE

To identify deficiencies in the Immigration and Naturalization Service’s (INS)
Systematic Alien Verification for Entitlements (SAVE) system and related States’
processes.

BACKGROUND

The Immigration Reform and Control Act of 1986 (Public Law 99-603) established the
SAVE system to assist eligibility workers in preventing illegal aliens from receiving
federally subsidized benefits. Attherequest    of the Administration for Children and
Families (ACF), we attempted to determine if the SAVE process is cost-effective. We
were unable to do so. The reasons for this are described in our report “Cost-
Eflectiveness of S4YE” (OEI-07-91-01230).    In the course of that study, we discovered
certain deficiencies in the way States use SAVE and also some in the system itself.
Here in this report we describe those deficiencies.

The Martin Marietta Corporation contracts with INS to store and provide electronic
access to the SAVE Alien Status Verification Index, a data base containing more than
28 million records. Eligibility workers are required to verify the alien’s INS
documentation through this automated SAVE system. If the alien’s status is not
verified, an “Institute Secondary Verification” response is generated. Copies of
immigration documents must then be forwarded to an INS District Office for a SAVE
program manual review for authentication. Eighteen percent of all Aid to Families
with Dependent Children (AFDC) and Medicaid primary verification requests,
(October 1992- December 1993), resulted in an “Institute Secondary Verification”
message.

This inspection focuses solely on aliens applying for AFDC and Medicaid under the
Department of Health and Human Services in which INS generated an “Institute
Secondary Verification” response. We chose a purposive sample of four States
(California, Florida, Illinois, and Texas) on the basis of volume of primary queries,
dollars to the States, and population. We reviewed randomly selected State cases,
procedures, computer systems, and their agreements with INS on the use of SAVE.

FINDINGS

States Are Not Consistently Performing The Required Secondary Verification To
Validate Aliens’ Status.

Of the 268 cases used to review for cost avoidance, we found 92 cases (34 percent)
where the required SAVE secondary verification was not performed. In 45 of these
cases, States improperly made eligibility decisions without full development and in 47
cases, States improperly relied on unauthenticated alien documents to determine
eligibility for payments.


                                            i
States Are Not Documenting Their Case Files To Establish That They Have Obtained
Adequate And Current Responses From The SAVE Verification Process Prior To
Initiating Payments To Aliens.

Primary verification requests and the INS SAVE responses were undated, or there was
no primary request in the case file. Also in those cases where the INS did not
respond to secondary verification requests, the eligibility worker either did not
follow-up with INS or neglected to document this activity.

States Are Unnecessarily Querying The SAVE System.

States are unnecessarily querying SAVE for aliens who have become naturalized U.S.
citizens or for aliens who were not applying for aid. Further, SAVE is not needed
when an alien applies only for Emergency Restricted Medicaid. Illegal aliens are
eligible for this aid regardless of their immigration status.

Deficiencies Continue To Exist In The Design And Operation Of The SAVE Data
System.

SAVE data is not always provided in a timely manner; the SAVE data base is not
current; INS immigration status responses are not always clear; and SAVE is prone to
manual keying errors.

States Are Unable To Consistently Match And Locate Sample Cases When An
“Institute Secondary Verification” Message Is Generated From INS.

States lack sufficient matching points (i.e., Last Name/First Name, Date of Birth,       Date
of Entry...) within their data base to identify alien case files in data matches with   the
INS/SAVE data base. Other contributing factors for the States’ low success rate         in
matching data are not retaining immigration information in the data base, errors        in
querying the SAVE system, and system deficiencies.

RECOMMENDATIONS

In our companion report, “Cost-Effectiveness of SAVE” (OEI-07-91-01230), dated
November 1995, we reported that we were unable to determine the cost-effectiveness
of the SAVE system. Consequently, there will be a continuing concern about the
overall utility of the SAVE requirement. However, the statute requires that unless a
waiver is granted, the system must be used to verify eligibility status of aliens. Based
on our review, we believe that there are improvements that can be made in the system
to both streamline its operation and more effectively allow for future reconciliations.
To this end, we offer the following recommendations.

The ACF and the Health Care Financing Administration (HCFA) should remind States
of the SAW requirements and suggest minimal documentation to be included in the State
case files.


                                             ii
The ACF and HCFA should work with INS to enhance the SAVE program to make it
more timely and user jiiendly.

The ACF and HCFA should coordinate with States and INS to identi. the most eficient
and effective way to designate and implement matching points between their respective
data base systems.

AGENCY     COMMENTS AND OIG RESPONSE

The ACF feels the OIG has inferred that the fault and any corrective action on SAVE

lay primarily on the States. It is their belief that improvements with SAVE are

primarily the responsibility of INS. We continue to believe the States do have a basic

role in improving the SAVE system. These areas are specified in our

recommendations.    We do agree, however, that effective improvements to SAVE

should involve INS as well. This is reflected in our recommendations.


The HCFA concurs with our recommendations         and has outlined specific actions to be

taken to implement them.


Both ACF and HCFA stressed the importance of capturing the Social Security number

in the INS data base to serve as a matching point. We hope that INS will give serious

consideration to this suggestion.


The Assistant Secretary for Planning and Evaluation submitted several editorial and

technical changes, which we have incorporated into the final report.


The INS did not provide written comments to the report, but verbally indicated

concurrence with the findings and recommendations.


Copies of ACF and HCFA comments are included in Appendix D.





                                           . ..
                                          111
                          TABLE                     OF CONTENTS


                                                                                                                       PAGE


EXECUTIVE            SUMMARY


INTRODUCTION.               . . .. . .. . . . .. . . . .       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


    � Procedures Not Followed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


    � Documentation          of Cases         ........................................                                           6


    � Unnecessary        SAVE Queries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


    � Design     &Operation          of SAVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


    � Imcation ofCase Files.               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATIONS                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...12


APPENDICES


k        Sample Case Breakout . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B:      Primary Verification           ...,....        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


C       Sample Selection           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . c-l


D:      Agency Comments              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1

                         INTRODUCTION


PURPOSE

To identify deficiencies in the Immigration and Naturalization Service’s (INS)
Systematic Alien Verification for Entitlements (SAVE) system and related States’
processes.

BACKGROUND

Legal Basis for SAW??

The Immigration Reform and Control Act of 1986 (Public Law 99-603), hereafter
referred to as the Act, established the SAVE program. SAVE is designed to assist
eligibility workers in preventing illegal aliens from receiving federally subsidized
benefits. The Act requires States to verify aliens’ immigration status for those applying
for certain federally funded benefits.

Federal Regulations, 45 CFR 233.50, specify that to be eligible for assistance an
individual must be a United States citizen, an alien lawfully admitted for permanent
residence, or an alien otherwise permanently residing in the U.S. under color of law
(PRUCOL). PRUCOL includes aliens residing in the U.S. whose presence is known
and tolerated by authorities for an indefinite period of time. Although these
individuals have not become permanent resident aliens, authorities do not have plans
to deport them.

The Act mandates the following programs and oversight agencies to participate in the
verification of alien documentation: Food Stamp Program; Housing Assistance
Programs; Unemployment Compensation; Title IV Educational Assistance; Aid to
Families with Dependent Children; the Medicaid Program; and certain Territorial
Assistance Programs. This inspection concentrates solely on the AFDC and Medicaid
programs under the Department of Health and Human Services.

Rogram Processes

The Martin Marietta Corporation contracts with INS to store and provide electronic
access to the SAVE Alien Status Verification Index, a data base containing more than
28 million records. When an alien applies for the federally funded programs listed
above, an eligibility worker is required to verify the alien’s status by querying this
automated SAVE system. The SAVE program is a two part process, involving a
primary and secondary verification of alien immigration status. The primary
verification is an automated process which is used to authenticate the alien registration
number listed on the applicant’s immigration documents. When accessed by the user
through a touch-tone or computerized system, the SAVE Alien Status Verification
Index will respond within three to five seconds of the query, providing the alien’s
status. Once a response is received from INS, the eligibility worker uses this
information to determine if the alien may be eligible to receive benefits.

Possible responses from a primary request of SAVE include:

  .    Lawful Permanent Resident - Employment Authorized;

  .    Cuban/Haitian Entrant - Temporary Employment Authorized;

  �    Section 245A Temporary Resident - Temporary Employment Authorized;

  �    Section 210 Temporary Resident - Tempora~ Employment Authorized;

  .    Application pending - Temporary Employment Authorized; or

  �    “Institute Secondary Verification.”


If the INS responds to a verification request with “Institute Secondary Verification,”
the eligibility worker is required, according to the INS SAVE manual, to send copies
of immigration documents which are attached to a Document Verification Request
(Form G-845) to the INS District Office for a SAVE program manual review for
authentication. This is referred to as a secondary verification. The INS staff examines
the documents and conducts automated and manual validation searches. The INS
procedures indicate that it will respond to the submitting agency within ten working
hays. Responses from a seconda~ verification request might indicate:

  �    Lawful Permanent Resident;

  �    Conditional Resident Alien;

  �    Cuban/Haitian Entrant;

  �    Application Pending;

  �    Authorized or Not Authorized Employment;

  �    Granted Asylum/Refugee, or Parolee; or

  �    No determination can be made with documentation presented as the

       documents have expired, documents appear to be counterfeit or altered,
       documents are not readable, or not enough information was provided.

The SAVE manual instructions and the agreements between INS and the States

indicate that an eligibility worker is required to perform a primary verification request

and a secondary verification request, if needed, each time an alien applies for benefits

as an alien’s immigration status can change. As an example, lawful permanent

resident aliens can lose their immigration status if they are (a) convicted of a felony

offense, (b) convicted of three misdemeanor offenses, or (c) leave the U.S. without

INS permission.


The INS maintains records of disclosure on all alien registration numbers checked

through the SAVE Alien Status Verification Index data base. The INS maintains and

discloses these records in accordance with the Privacy Act and the Freedom of

Information Act.


At the request of the Administration for Children and Family (ACF), we attempted        to

determine if the SAVE process is cost-effective. We were unable to do so. The



                                             2
reasons for this are described in our report “Cost-Eflectiwmess of SAV7Z”
(OEI-07-91-01230). In the course of that study, we discovered certain deficiencies in
the way States use SAVE and also some in the system itself. Here in this report we
describe those deficiencies.

METHODOLOGY

Inspechbn Focus

The inspection focuses on the “Institute Secondary Verification” process. Guidelines
provide that benefits cannot be denied to an applicant unless a secondary verification
has been performed. “Institute” messages indicate a possible problem in the
identification of an alien’s immigration status which may reveal that the alien is
ineligible to receive benefits. Following receipt of an “Institute Secondary
Verification” message, eligibility workers are required to further develop immigration
status. INS reported that 18 percent of all primary queries (October 1992-
December, 1993), resulted in “Institute Secondary Verification” messages and required
development by eligibility workers.

Sample Selection

We selected a purposive sample of four States for review (California, Florida, Illinois,

and Texas). We selected these States based upon the volume of primary queries for

Fiscal Year (FY) 1992, administrative costs by the State AFDC and Medicaid

programs for FY 1992, and the undocumented alien population based on the 1980

census. Since California is county-administered, we selected a statistically valid sample

from three strata representing small, medium, and large counties on the basis of the

volume of queries to the SAVE system during our study period (September 1 -

November 30, 1993) that resulted in an “Institute Secondary Verification” message.

The three strata represents 97 percent of the queries made to the SAVE system. Six

counties were randomly chosen including Fresno, Los Angeles, Orange, Riverside, San

Bernardino, and San Francisco. The undocumented alien population in these States

represent almost 70 percent of the 2.06 million undocumented alien population in the

1980 census, which was the last year that aliens were identified in the survey. All of

the selected States rank above non-selected States in one or more of the categories of

primary queries, costs, or undocumented alien population.


We worked with the INS and the sample States to capture all verification requests

made to the SAVE system for aliens applying for AFDC and Medicaid during our

study period. We contacted staff in these States to assure that we could identify alien

records and to obtain the corresponding case files. We were informed of which 10

individual applicant identifiers (i.e., Last Name/First Name, Date of Birth, Social

Security Number, Alien number,...) within the SAVE system that the States used to

reconcile their data files with the INS data base. The INS sent us a data file, including

all verification requests performed by the States that resulted in an “Institute

Secondary Verification” message.



                                            3
We selected a simple random sample of case files that had been matched between the
INSand State records. Reexamined     thecase files that the States were able to locate
and reviewed their procedures, computer systems, and agreements with INS on the use
of SAVE. We also talked to staff from ACF, Health Care Financing Administration
(HCFA), INS, and the States.

We conducted our review in accordance with the Qudy Standkis for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                          4

                                      FINDINGS


STATES ARE NOT CONSISTENTLY PERFORMING THE REQUIRED

SECONDARY VERIFICATION TO VALIDATE ALIENS STATUS.


  �	    We found thut the four Statm in our sample do not consktendy conduct a
        secondmy verijkation when an “Institute Secon.diwyV@ation”    message k
        received @m INS.

        State agreements with INS and the SAVE manual require that queries be

        performed to verify, the alien’s immigration status. While two States responded

        that they routinely perform the required secondary verifications, we have found

        cases in all four States where this was not performed. As a result, cases may

        be incorrectly placed in payment status prior to establishing eligibility.


        In the companion inspection, “Cost-Effectiveness of SAVE,” we were able to

        review only 268 AFDC/Medicaid and Medicaid-only cases for cost avoidance

        from the original 935 (Appendix A identifies cases by type and those that were

        dropped from review). Out of these 268 cases, we found 92 cases (34 percent)

        where eligibility decisions, resting only on alien status, were improperly made

        without performing the required secondary verification (Table 1 breaks down

        the 92 cases). Forty-five of these cases were not fully developed, while in 47

        cases the eligibility workers improperly relied on unauthenticated

        documentation to determine alien status in lieu of performing the secondary



                                                rable 1

                                                F THE SAVE PROGIUM

                                                UFICATION PERFORMED~

DECISIONS BASED ON                                CA       FL            IL   TX   TOTAL
PrimaryVerificationonly,no other
documentation
                                    19        2            21   3     45
Tern orary Work Authorization     Card

(1-6&B)
                                           2        0            0    7      9
 IP448xlter   Granting Permanent Residence
                                                   3        0            0    0      3
~;~5ment      Verification Request (Old Form
                                                   1         1           1    1      4
 Resident Alien Card/Alien Registration

 Receipt Card (1-551 or 1-151)
                    4        0            4    1      9
 Passport
                                         3        0            1    0      4
 Notice of Action (1-797)
                         0        0            4    0      4
 A@.&)eparture       Record over one year

                                                   2        0            10   0     12
 No Queries done:

 Cuban/Haitian Entrants (MAR)
                     0        2            0    0      2
 TOTAL                                            34        5            41   12    92
 1 None of these cases were denied for reasons other than citizenship.


                                                  5
       One State does not require a secondary verification for eligibility
       redeterminations if a prior secondary verification was performed and the query
       response is located in the file. The State’s instructions indicate that “once alien
       status has been verified through SAVE, it is not necessary to re-verify alien
       status unless it is a temporary status which is subject to change...”

       Staff in another State told us that it does not perform secondary verifications if
       it previously determined the alien’s status. They believe that “once a legal
       permanent resident alien, always a legal permanent resident alien.”

       We found, however, that there are circumstances when a person who is a legal
       permanent resident alien can lose this immigration status (i.e., convicted of a
       felony offense, convicted of three misdemeanors, or leaving the U.S. without
       INS permission). This supports the requirement that determining alien status
       is necessary when each alien applies for benefits.

  .	   When “Institute Secondiwy Ven&ation” messagm OCCW,States somethws
       improperly rely only on an alkmh documenfi to dktennine eligibilityforpayrnents.

       By accepting the alien’s INS document without completing the INS Form G-845
       for a secondary query, eligibility workers in the sample States have not
       authenticated the legitimacy of the document nor have they validated that the
       document has not been altered, stolen, or forged. (Table 1)

       On the other hand, staff from one State responded it prefers to use SAVE
       because it helps eligibility workers make decisions whether to grant benefits to
       alien applicants for AFDC or Medicaid. It feels the SAVE responses provide
       documentary support to eligibility workers on the alien’s immigration status,
       greatly lessening the need that eligibility workers rely only on their own
       judgment.

       Refer to the companion report for further details on cost avoidance cases.

STATES ARE NOT DOCUMENTING THEIR CASE FILES TO ESTABLISH

THAT THEY HAVE OBTAINED ADEQUATE AND CURRENT RESPONSES

FROM THE SAVE VERIFICATION PROCESS PRIOR TO INITIATING

PAYMEN’IS TO ALIENS.


We reviewed a sample of case files to determine if the States are accessing and
documenting the SAVE primary verification system properly and found that the INS
SAVE responses were undated. We found other cases where there was a primary
request in the file; however, it was not for the month of the application. There were
also cases where there was no primary verification request in the case file.




                                             6

In some cases, when the INS did not respond to secondary verification requests, the
eligibility worker did not follow-up with INS or neglected to document this activity.

For further details on primary verification and lack of documentation,     refer to
Appendix B.

STATES ARE UNNECESSARILY                    QUERYING        THE SAVE SYSTEM.


States perform multiple primary queries anticipating that the SAVE system will be
updated and the “Institute Secondary Verification” message will change to reveal the
alien’s immigration status. Once the SAVE system is updated after multiple primary
queries are performed, the eligibility worker bypasses the required secondary
verification request. For example, one State performed 28 primary queries on one
alien registration number. Although we are not able to project the actual costs of
these unnecessary queries, they are time-consuming, labor-intensive, and costly.

We found a large number of other situations in which States unnecessarily queried
SAVE to determine benefit eligibility. Three examples are included in Table 2.




 Emergency Restricted Medicaid -
 illegal aliens are entitled to this type
 of aid regardless of immigration status      53       15      29     3     100

 Reference only - payment on another
 case, but used as reference to the file      27       25       1     1      54
 U.S. Citizen                                  3       0        0     2         5
 TOTALS                                       83       40      30     6     159



DEFICIENCIES CONTINUE TO EXIST IN TkIE DESIGN AND OPERATION                           OF

THE SAVE DATA SYSTEM.


h-or Studies Note INS Systems Problems

One study conducted by the General Accounting Office, “Information Management:
Immigration and Naturalization Services Lacks Ready Access to Essential Data,”
September 1990 (GAO/IMTEC-90-75), and an INS study, “SAVE Program User
Satisfaction Survey Analysis Report,” September 1994, found INS data was sometimes
inadequate and not timely or current, and that States’ data systems are incomplete and
sometimes inaccurate. Our study confirmed problems similar to those raised in these
other reports.
I%obkrns still tit   with the SAVE system

  �    SAVE dhta is not always provided in a timely manner.

       While the INS operating procedures state that a response for a secondary
       request will be given within 10 working days from the date the request is
       received, we found that the response time varies widely, depending on the
       workload at the responding INS office.

       Two States report they receive secondary responses within 1 week to 3 months
       from the time of the secondary verification request. Two of the States report
       they receive secondary responses from INS within 10 days to 2 weeks.

        Our analysis of 49 of these State verification requests resulted in an average
        response time of 18.3 days. Responses from INS in 22 of the 49 requests
        (45 percent) exceeded the 10 working day limit. One response took 84 days.

  .     i!%e INS lMIL?Zdata base k not current.

       The INS, in its formal agreement with the States, agreed to update its SAVE
       data base, as necessary, to ensure that current and accurate information is
       available to the States. However, we found that the SAVE data base often
       does not have recently arrived aliens in the system for extended periods of time
       after their arrival (often exceeding six months). Further, we were advised that
       cases exist for aliens who have resided in the U.S. for over 20 years, but they
       were not included in the SAVE data base.

  .	   States report that the INS is able to ver@ alien immiyahon status in most cases.
       Howeve~ for aliens who are permanently restig in the U.S. &r       color of law
       (PRUCOL), the INS status responses are not always clear.

       Two States cite problems with aliens who fall under PRUCOL status, since it
       isn’t always clear if the clients are eligible for benefits. The INS does not
       always complete the G-845 Forms appropriately for aliens under PRUCOL.
       For example, we found a PRUCOL case where the INS SAVE response to a
       secondary verification request was incomplete. The response revealed that the
       alien was temporarily eligible to work; however, it did not provide the specific
       immigration status which was needed to determine eligibility for benefits.

  �    SAVE k prone to system keying errom

       Two States noted that matching problems are caused by staff keying errors in
       which an incorrect alien registration number (“A’ number) is transmitted. This
       is primarily due to confusion on how to enter “A” numbers into the SAVE
       system that have 7, 8, 9, or even 10 digits. Furthermore, the two States
       indicated that their system automatically drops the last digit of the alien
       number when too many digits are entered. This causes an “Institute Secondary
       Verification” message to be sent to the State, which results in performing an
       unnecessary secondary verification, and an increase in administrative costs.


                                            8
     All alien registration numbers begin with the letter “A” followed by 7, 8, 9, or
     10 digits. This number is assigned to an alien at the time the alien file is
     created. The INS instructions require the letter “A” to be converted to a zero
     before querying SAVE. However, if this conversion is not made or made
     incorrectly, it could result in an “Institute Secondary Verification” message, and
     subsequent requests for a secondary verification when, in fact, no such
     verification was needed.

     Furthermore, the two States indicated that when an eligibility worker adds zero
     to the alien registration number but retains the letter “A’ prefix, this causes the
     last digit in the number to be erased. When this query is submitted to INS for
     verification, it will also result in an “Institute Secondary Verification” message to
     the State. An unnecessary secondary verification will then be performed,
     resulting in increased administrative costs.

STATES ARE UNABLE TO CONSISTENTLY MATCH AND LOCATE SAMPLE

CASES WHEN AN “INSTITUTE SECONDARY VERIFICATION’ MESSAGE IS

GENERATED FROM INS.


 �   Sample States are unable to consistently match cases to INS recora%.

     In the INS/State matching process, INS sent us a data file of all records in our
     study period where the State had performed a primary query which resulted in
     an “Institute Secondary Verification” message. The States then matched their
     case files to these INS alien records. Table 3 breaks down the number of
     records in the INS data file and the records that States were able to match to
     them.

                                                  Table 3





      INS Unique Records               22,659              8,283        2,996           6,584

     // IIWState Match            I   23.2262          I   1998    I     168       I        993

     ]]Percent Matched            I    103%            I   24%     I     670       I        50%    II
       1 For further   details on the INS/State   data file match, refer to Appendix   C.

       2 Number larger due to multiple queries made by the State as a result of aliens
         applying in more than one county which establishes a separate record in
         each county.

       3 Due to resource limitations and the inability to conduct automated
         matches in Texas, we provided a sample of 200 data files to match with
         their State records rather than have them match their data files to the full
         6,584 data files. Manually matching the 200 INS data files resulted in a
         total of 99 matches.




                                                  9

      All States but California had insufficient data available to reconcile their files
      with INS’ data files as a result of inconsistent methods of designing and storing
      data information in their computer systems. California is the only county
      administered State in our sample. As a result, it is extremely difficult for the
      States to create an audit trail. Although California as a State could match all
      files, counties within the State were not able to match with INS records.

      SAVE has 10 data elements in its data base. However, States can only match
      on a minimum of 3 data elements to a maximum of 6 elements. The three
      most common elements were: Last Name/First Name, Date of Birth, and Social
      Security Number. With insufficient matching points, it is difficult to reconcile
      State records with the INS data base.

      The INS uses the alien registration number as one of the 10 data elements.
      However, most States are not able to match their records with this number.
      The primary reason indicated was that they are not required to maintain this
      number in their data base.

  .   Sample States were unable to consktently locate cases in our sampk

      Our review called for samples to be taken from cases matched between INS
      and the States. The four States were able to locate only 75 percent of the
      sample cases in the study for our review. The numbers by State are displayed
      in Table 4.




         California            335                   266                 79 percent
         Florida               200                   180                 90   percent

      IIIllinois       1
                               2001
                                           I
                                                     153
                                                                 1
                                                                        76.5 percent
                                                                                             1




      IITOTAL

        Texas
                       I
                               200
                                            I
                                                     99
                                                                 1
                                                                        49.5 percent
                                                                                             I

         MATCHED               935                   698                 75 percent

        1 We conducted an INS/State match using Illinois’ entire universe of cases in our
          study period and could only match 168 cases. Therefore, only 168 rather than 200
          cases could be used to conduct our review.

We found that, while the State of California obtains the alien number for initial claims
processing, it is not maintained on file by the State or county offices. Although the
State could match all data files, California counties were unable to match and locate
all cases in our sample. Also, in the State of Florida capturing the alien number was


                                            10
voluntary which caused matching problems with the universe (Table 3). The State of
Florida was able to match cases in our sample only through a manual process.

  .   Other factom contn”bute to the States’ low success rate in identijjkg and matching
      w.

      One State indicated that 40 percent of AFDC and Medicaid cases are denied,
      and for these cases information such as the alien number is not retained in the
      data base. Since only general information such as name, case number, and
      reason for the denial of benefits is retained in the State’s system, it was unable
      to match and locate INS data for these denied cases.

      One State responded that its data file structure does not permit entry of the
      alien number. Our review, however, showed that alien numbers provide a
      more effective match than is obtained by other data elements such as the
      individual’s name.




                                           11

                   RECOMMENDATIONS


In our companion report, “Cost-Effectiveness of SAVE’ (OEI-07-91-01230), dated
November 1995, we reported that we were unable to determine the cost effectiveness
of the SAVE system. Consequently, there will be a continuing concern about the
overall utility of the SAVE requirement. However, the statute requires that unless a
waiver is granted, the system must be used to verify eligibility status of aliens. Based
on our review, we believe that there are improvements that can be made in the system
to both streamline its operation and more effectively allow for future reconciliations.
To this end, we offer the following recommendations.

Ihe ACF and HCFA should remind States of the SAVE requiremen~ and suggest
minimal documentation to be inchuied in the State case files.

The ACF and HCFA should remind States to perform the required secondary
verification requests when instructed to do so by INS, not relying solely on immigration
documents in determining alien status, and only querying the SAVE system when
necessary.

In relation to verifying alien status, ACF and HCFA should suggest minimal case file
SAVE documentation such as:

  �    Dating primary and secondary verification requests.

  .    Documenting INS responses from verification requests.

  �    Documenting follow-up information on secondary verification requests and the

       INS’s responses.

Z4e ACF and HCFA should work with INS to enhance the SAW program to make it
more timely and user jiiendly.

The ACF and HCFA should work with INS to achieve responses to secondary
verification requests within 10 working days as required by INS’s memoranda of
understanding with States.

The ACF and HCFA should request INS to modify the SAVE system to allow
eligibility workers to enter alien numbers into the touch-tone system or other system,
exactly as it is shown on the Alien Registration Card. This would eliminate eligibility
worker confusion on converting this number and should reduce unnecessary secondary
verifications.

l%e ACF and HCFA should coordinate m“th States and INS to identifi the most ej@ient
and g&ective way to dim~ate and impkvnent matching poina between their respective
dkta base systems.

These parties should explore the implementation of efficient and effective minimum
matching points between INS and States’ data bases. We found that States currently
have the following minimum data elements, with some States also using the alien
number:

  �    Last Name/First Name
  �    Date of Birth
  .    Social Security Number

States will benefit by establishing universal matching points in their systems, the ability
to create an audit trail to ensure only eligible aliens are receiving benefits, and the
ability to reconcile records with the INS data base.

AGENCY     COMMENTS AND OIG RESPONSE

The ACF feels the OIG has inferred that the fault and any corrective action on SAVE
lay primarily with the States. It is their belief that improvements with SAVE are
primarily the responsibility of INS.

We continue to believe that the States do have a role in making improvements to the
SAVE program. Based on our review of the SAVE program and the States systems,
we have specified in our three recommendations those areas needing improvements.
We do agree, however, that effective improvements to SAVE should involve INS as
well. This is reflected in our recommendations.

The HCFA concurs with our recommendations          and has outlined specific actions to be
taken to implement them.

Both ACF and HCFA stressed the importance of capturing the Social Security number
in the INS data base to serve as a matching point. We hope that INS will give serious
consideration to this suggestion.

The Assistant Secretary for Planning and Evaluation submitted several editorial and
technical changes, which we have incorporated into the final report.

The INS did not provide written comments to the report, but verbally indicated
concurrence with the findings and recommendations.

Copies of ACF and HCFA comments are included in Appendix D.




                                             13

                               APPENDIX                    A


The table below breaks down the total number of cases in our original sample, those
cases that were eliminated and the reasons for their elimination, and cases reviewed
for cost avoidance.




 Original number in sample                           335     200   2001       200   935

 Less   Cases not found bv States                    69      20     47        101   237

 Less Denied - alien had too much income or
 resources or failed to cooperate                    26      37     10        25    98
 Less Food Stamps                               13212110145198
 Less Emergency Restricted 2                         53      15     29    I   3     100

 Less Refugee Cases                                  20      19     010             39
 Less Reference Only 2- payment on
 another case, but used as reference to the
 file                                                27      25     1          1    54
 Less Cases not in Study Period                       5      18     012             25
 Less   U.S. Citizens 2                         1310101215




 Medicaid Onlv                                  142122t59171130




                                              A-1

                                         APPENDIX                                B


                        PRIMARY        VERIFICATION               SAMPLE REVIEWED




II California’                  I                                       I                                            II
II Florida                      I              100                      I                    97                      II
II Illinois                                    100                      I                    90                      II
1!Texas                                        100                                           84
                                                                                                                     I
   1 CA was unable to access its system to provide us with a universe of cases from which we could
     select a samde.




                   DOCUMENTATION                OF THE PRIMARY                   VERIFICATION




  Texas 2                  13                   20                          49                2               0

   1 CA was unable to access its system to provide    us   with   a   universe of cases from which we could
     select a sample.

   2 Both Florida and Texas use the touch-tone method of accessing the SAVE system for prima~
     verification queries. This is a manual system which relies on eligibility workers to enter the alien
     identification number into the SAVE system.

   3 Illinois uses an automated system to make primary verifications queries. As part of the claims
     process, the eligibility workers enter the alien identification number into an automated query
     system which batch processes SAVE queries. This results in a primary query response. Although we
     found the State was consistently using this process, ~        of the primary verification requests are dated.




                                                           B-1

                                         APPENDIX                              C


                   PROCESS OF SAMPLE&                       IDENTIFICATION                SELECTION

                                                     CALIFORNIA

File Summarv

INS Data Files sent toga              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22,6591

CA Data Files Matched to INS                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36,1521

Unique Records Matched th ins.....                        . . . . . . . . . . . . . . . . . . . . . ...23.2262

Unique Sample Size             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...335

Number ofCase Files Found.                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...266

1 includes multiple primary verification queries which resulted in duplicate files

2 universe from which sample was selected (number larger than INS data files
  due to multiple queries made by the State as a result of aliens applying
  in more than one county, which establishes a separate record in each county)




                                                        FLORIDA

File Summarv

INS Unduplicated         Data Files sent to Florida                . . . . . . . . . . . . . . . . . . . . 8283

Number of FL Data Files that Matched                      . . . . . . . . . . . . . . . . . . . . . . . . 23001

Unique FL Data Files that Matched INS records                           . . . . . . . . . . . . . . . . . 19982

Sample Size . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...200

Number of Case Files found . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 180

1 includes duplicates

2 universe from which sample was selected



                                                             c-1
                         PROCESS OF SAMPLE SELECTION                             CONTINUED

                                                        ILLINOIS
File Summarv

INS Data Files with Duplicates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             3551

INS Data files without Duplicates..                 ...........................                          2996

IL Data Files with Duplicates             ................................                               11,4081

Unique IL Data Files with Alien Number                       ......................                      6,731

IL Data Files with SSN             ....................................                                  8,8492

Entire Universe Matched (INS and IL matches)                        ..................                   168     3

Data Files Matched by Alien Number . . . . . . . . . . . . . . . . . . . . . . . . . .                   88

Data Files Matched by SIN                .................................                               6

Number of Case Files found . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             153

I includes Lawful Permanent Resident Aliens, “Institute Secondary Verification”
  messages, and the 40 percent denied cases (the cases are retained in the
  data only by Last Name/First Name, case number, and reason for denial -
  which could not be located in the State/INS match)

2 includes duplicates

3 entire universe used for the review (not a sample), no duplicates


                                                          TEXAS
File Summarv

INS Data Files for TX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          6584


INS Data Files stripped of Files with A# only and

Duplicates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   17941


Sample Size . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    200


Number of Case Files found . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             99


1 Texas could not match on the alien registration number. This produced the

  universe from which the sample was selected.




                                                            c-2
APPENDIX          D

 AGENCY    COMMENTS




          D-1
              *   ,1s-,,
         **                “4
    .+
:                                     DEPARTMENT      OF HEALTH&   HUMAN SERVICES
:*
 %%‘4#
     ~t,,m
                                                                                      ADMINISTRATION FOR CHILDREN AND FAMILIES

                                                                                      Office of the Assistant Secretary, Suite 600

                                                                                      370 L’Enfant Promenade, S.VV.

                                                                                      Washington, D.C, 20447





                                DATE :         Aqgust 16,       1995

                                TO:            June Gibbs Brown
                                               Inspector General

                                FROM :         Mary Jo Bane

                                               A~sis~an~ secreta~~~      ~---”

                                                 for Children and Families


                                SUBJECT    :   Comments - OIG Report: “Review of the SAVE System and

                                               Processes.” OEI-O?-91-01231



                                As requested, we have reviewed the subject Report and found that
                                from an overall perspective, we would have liked the OIG review
                                to have resulted in a more definitive answer to the question of
                                the Systematic    Alien    Verification    for Entitlements     (SAVE)
                                programls    cost effectiveness.        However,  we understand    why this
                                was not possible,      not only by virtue      of the reasons described in
                                the OIG Report, “Cost Effectiveness of SAVE” (OEI-07-91-01230) ,
                                but also, under the approach the OIG used for conducting the
                                analysis.

                                Also,     the Review and companion, Cost-Effectiveness Reports find
                                fault with the way both the Immigration and Naturalization
                                Service (INS) and the States operate and use the SAVE program.
                                However, the tone of the reports and the study recommendations
                                appear to put much of the onus for this, and any corrective
                                actions, on the States. For example, the recommendation to
                                improve the match points between State and SAVE data is to us,
                                principally,       a responsibility        of the INS and not the States.  Our
                                corrments     on the specific       recommendations   made i.n the Reports
                                reflect      our concern     in this    regard.

                                Regarding   the        recommendations    contained       i.n the   “Review    of   the
                                SAVE System’s          Processes,   “ we have the     following      comments:

                                RECOMMENDATION: The ACF and the Health Care Financing
                                Administration (HCFA) should remind States of the SAVE
                                requirements and suggest minimal documentation to be included in
                                the State case files.

                                RESPONSE:   The Immigration and Naturalization Service (INS) is

                                responsible for providing the States with the necessary

                                instructions for operating the SAVE program to include minimal

                     Page 2 - June Gibbs Brown



                     documentation in the State case files. The INS should be
                     aware that   the States    require   the latest and best information       in
                     this  regard   i.n order to properly    use the SAVE program.

                     RECOMMENDATION   : The ACF and HCFA should    coordinate with INS to

                     enhance    the SAVE program to make it more   timely and user

                     friendly.


                     RESPONSE: We have in the past and will in the future work with

                     INS to improve the SAVE program.


                     RECOMMENDATION : The ACF and HCFA should coordinate with the

                     States and the INS to identify the most efficient and effective

                     way to designate and implement matching points between their

                     respective data base systems.


                     RESPONSE:   In our opinion, the best way of improving the ability

                     to match State files with the SAVE database is for the INS to

                     make every effort to capture and include the social security

                     number in SAVE records.   It is our understanding that the SAVE

                     system is designed to store this information, but the INS is not

                     diligent in capturing and maintaining it. We would add that

                     making it easier in the future to determine the cost

                     effectiveness of SAVE is probably insufficient justification for

                     compelling the INS to do a better job of maintaining this

                     information.


                     If you have any questions concerning these comments, contact

                     Robert Shelbourne at (2o2) 401-5051 or Robert Laue at (2o2) 401-

                     5040.




       ,. sm.%   ~
 *4+             %

:z“
:,
  5
   %
  ‘+
          $
       Jbd,a
        >
                        DEPARTMENTOF   HEALTH&HUMAN   SERVICES                HealthCare Financing Administration
                                                                                          -—
 �
 4
   #        ,,lV It,,   .. .
                               ,
:“
:

---
 5
   %
   ‘4
        >
            $
        ~b.,a
                                     DEPARTMENT     OF HEALTH&    HUMAN SERVICES                          Health Care Financing
                                                                                                                         -—



                                                                                                          The Administrator
                                                                                                                                  Administration





                                                                                                          washiwtontD.C.20201




                               DATE           AUG    31995

                               TO	           June Gibbs Brown
                                             Inspector General

                               FROM	         Bruce C. Vladec +Wi!(
                                             Administrator

                               SUBJECT	      Office of Inspector General Draft Reports Entitled “Cost-Effectiveness
                                             of SAVE” (OEI-07-91-O 1230) and “R-eView of SAVE System’s Processes”
                                             (OEI-07-91-01231)


                               We reviewed the above reports which provide information on the Immigration and
                               Naturalization Services’ (INS) Systematic Alien Verification for Entitlement (SAVE)
                               system and related State processes. Report OEI-07-91-01230 addresses the cost-
                               effectiveness in verifying immigration status of aliens applying for Aid to Families with
                               Dependent Children (AFDC) and Medicaid. The companion report, OEI-07-91-01231,
                               describes the deficiencies in the INS and related State systems.

                               Report OEI-07-91-01230 contains no specific recommendations.   The Health Care
                               Financing Administration concurs with the three recommendations presented in the
                               report on “Review of SAVE System’s Processes. ” Our response has been coordinated
                               with the Administration for Children and Families.

                               Thank you for the opportunity to review and comment on these reports.

                               Attachment
                   Health Care Financinq Administration (HCFA) Comments on

     Ofilce of Insuector General (OIG) Drafi Reuort: “Entitled Cost-Effectiveness of SAVE”

     (OEI-07-91-01230) and “Review of SAVE Svstem’s Processes”-- (OEI-07-9 1-01231)




OIG Recornrnendation 1

The Administration for Children and Families (ACF) and the Health Care Financing
Administration (HCFA) should remind States   oftheSystematic Alien Verification

                                                                               forEntitlement
(SAVE) requirements   andsuggest  minimal documentation  tobeincluded  intheState casefiles.


HCFA Res~onse

We concur. State workers need current, precise instructions on how to meet SAVE system
requirements and how to properly use the query system. The Immigration and Naturalization
Semite (INS) should make certain that States have up-to-date INS user manuals.

OIG Recommendation 2

The ACF and HCFA should work with INS to enhance the S.4VE program to make it more
timely and user friendly.

HCFA Response

We concur. HCFA will formally request INS to modify the SAVE system to allow eligibility
workers to enter alien numbers into the touch-tone-system or other system exactly as they are
shown on the Alien Registration Card. We will continue to work with the INS to facilitate
improvement in responses to secondary verification requests.

OIG Recommendation 3

The ACF and HCFA should coordinate with States and INS to identi~ the most efficient,
effective way to designate and implement matching points between their respective data base
systems.

HCFA ResDonse

We concur. HCFA recommends that the INS investigate with the Social Security Administration
the feasibility of adding the Social Security number to the INS data base to serve as a matching
point.
